           Office Of Inspector General




February 4, 2004

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:         Audit Report - Postal Service’s Rehabilitation Program for the
                 Long Beach, Los Angeles, and San Diego Performance Clusters
                 (Report Number HM-AR-04-005)

This report presents the results of our self-initiated audit of the Postal Service’s
Rehabilitation Program for the Long Beach, Los Angeles, and San Diego Performance
Clusters (Project Number 03YN001HM001). The objective of our audit was to
determine whether the Long Beach, Los Angeles, and San Diego Performance Clusters
were placing injured employees, who were medically approved to return to work, in
modified work assignments. However, we did not evaluate whether any of the injured
employees are “disabled” as defined by the Rehabilitation Act of 1973.

The Postal Service’s Rehabilitation Program is adequately placing employees with
work-related injuries in its Long Beach, Los Angeles, and San Diego Performance
Clusters in modified work assignments. However, Postal Service management expects
that placing injured employees will become increasingly difficult due to automation,
consolidations, declining workloads, and outsourcing of Postal Service functions. As a
result, the Postal Service will experience future increases in workers’ compensation
costs due to its inability to provide placements to injured employees.

Although the Postal Service placed injured employees in modified work assignments,
the performance clusters’ injury compensation control office staff did not closely monitor
the medical and work status of rehabilitation employees. This situation occurred
because the injury compensation control office did not consider these case
management tasks as important as managing other injury compensation cases such as,
periodic roll and limited duty cases. Consequently, some rehabilitation employees may
work beyond their recommended medical restrictions, risking additional injury or,
conversely, not working to their full capacity and reducing their unit’s productivity in the
future.

We provided management with three recommendations to improve the Rehabilitation
Program. Management agreed to recommendations 1 and 3 and has initiatives in
progress, completed, or planned addressing the issues in this report. However,
management partially disagreed with recommendation 2. We do not view the partial

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
disagreement as unresolved and do not plan to pursue it through the formal audit
resolution process. Management’s comments and our evaluation of these comments
are included in the report.

The Office of Inspector General (OIG) considers recommendations 2 and 3 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Erica
Blackman, director, Health Care Audit, at (703) 248-2149 or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Ronald E. Henderson
    Alfred Iniguez
    John A. Rapp
    Donna M. Peak
    Susan M. Duchek
Postal Service’s Rehabilitation Program for                           HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                                  TABLE OF CONTENTS

 Executive Summary                                                     i

 Part I

 Introduction                                                          1

     Background                                                        1
     Objectives, Scope, and Methodology                                2
     Prior Audit Coverage                                              2

 Part II

 Audit Results                                                         5

    Postal Service Rehabilitation Program                              5
      Placement of Injured Employees                                   5
      Changes in Postal Service Operations                             6
      Possible Increases in Future Workers’ Compensation Costs         7
    Recommendation                                                     8
    Management’s Comments                                              8
    Evaluation of Management’s Comments                                8

    Monitoring Rehabilitation Employees                                9
      Current Medical Documentation                                    9
      Rehabilitation Job Offers for Injured Employees                  9
      Prioritizing Case Management Tasks                              10
      Injured Employees Working Above or Below Medical                11
        Restrictions
      Corrective Action Taken to Improve the Rehabilitation Program   11
    Recommendations                                                   12
    Management’s Comments                                             13
    Evaluation of Management’s Comments                               13

 Appendix A. Methodology for Rehabilitation Employee Sample           14
             Selection
 Appendix B. Management’s Comments                                    17
Postal Service’s Rehabilitation Program for                                        HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our self-initiated audit of
                              the Postal Service’s Rehabilitation Program (Project
                              Number 03YN001HM001). The overall objective of
                              our audit was to determine whether the Long Beach,
                              Los Angeles, and San Diego Performance Clusters were
                              placing injured employees in modified work assignments
                              who were medically approved to return to work. However,
                              the audit did not evaluate whether any of the injured
                              employees are “disabled” as defined by the Rehabilitation
                              Act of 1973.

                              The Postal Service’s Rehabilitation Program fulfills its legal
                              obligation under Title 5 of the Code of Federal Regulations,
                              Part 353.301, which directs agencies to make every effort to
                              restore to work an employee who has partially recovered
                              from a compensable injury. Postal Service’s
                              Handbook EL-505, Injury Compensation, Section 11,
                              states the Postal Service will make every effort to reemploy
                              or reassign injured-on-duty employees with permanent
                              partial injuries to positions consistent with their medical work
                              restrictions.

 Results in Brief             The Postal Service’s Rehabilitation Program placed
                              employees with work-related injuries in its Long Beach,
                              Los Angeles, and San Diego Performance Clusters in
                              modified work assignments. However, Postal Service
                              management expects that placing injured employees will
                              become increasingly difficult due to automation,
                              consolidations, declining workloads, and outsourcing of
                              Postal Service functions. Therefore, these changes in
                              Postal Service operations will likely reduce the availability of
                              work assignments for injured employees. If the
                              Rehabilitation Program cannot continue to place current and
                              newly injured employees, workers’ compensation costs for
                              the Postal Service will increase.

                              Although the Postal Service placed injured employees in
                              modified work assignments, the injury compensation control
                              office staff did not closely monitor the medical and work
                              status of rehabilitation employees. This situation occurred
                              because the injury compensation control office staff did not
                              consider these case management tasks as important as
                              managing other injury compensation cases such as,




                                                i
Postal Service’s Rehabilitation Program for                                       HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                              periodic roll and limited duty cases. Consequently, some
                              rehabilitation employees may work beyond their
                              recommended medical restrictions, risking additional injury
                              or, conversely, not working to their full capacity and
                              reducing their unit’s productivity in the future.

                              The Postal Service has initiated actions to help control rising
                              workers’ compensation costs. In its National Rehabilitation
                              Initiative, the Postal Service is reassessing its Rehabilitation
                              Program nationwide. The National Reassessment Initiative
                              has improved the program by updating medical records and
                              returning some employees to full duty. It has assigned
                              some rehabilitation employees to labor distribution codes
                              that reflect the work they are currently performing. This
                              initiative, when completed, will help the Postal Service to
                              reduce its annual workers’ compensation costs.

 Summary of                   We recommended Postal Service management continue its
 Recommendations              efforts to partner with the Department of Labor to better
                              utilize the Office of Workers’ Compensation Programs
                              Vocational Rehabilitation Program. In addition, Postal
                              Service management should fully implement new
                              procedures established by the National Reassessment
                              Initiative in the Long Beach, Los Angeles, and San Diego
                              Performance Clusters. Finally, Postal Service management
                              should issue a nationwide policy letter to control office staff
                              to reaffirm the importance of case management tasks
                              needed to monitor current and future rehabilitation
                              employees.

 Summary of                   Management agreed with recommendations 1 and 3 and
 Management’s                 has initiatives in progress, completed, or planned
 Comments                     addressing the issues in this report. For recommendation 1,
                              management stated they were partnering with the Office of
                              Workers’ Compensation Programs on two rehabilitation
                              efforts. For recommendation 3, management stated they
                              had completed the National Reassessment Initiative in
                              December 2003 and they would provide a detailed report
                              showing the results in February 2004.

                              However, management partially disagreed with
                              recommendation 2. Specifically, management agreed they
                              would issue a letter in February 2004 to the Injury
                              Compensation control office staff reiterating the requirement
                              that medical information, relating to employees in



                                               ii
Postal Service’s Rehabilitation Program for                                     HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                              permanent rehabilitation assignments be reviewed on an
                              annual basis. However, management disagreed with the
                              control office staff coordinating case management actions
                              with supervisors on a quarterly basis, or as soon as
                              changes may occur in each case. Management’s
                              comments, in their entirety, are included in Appendix B of
                              this report.

 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 recommendations 1 and 3 and should resolve the issues
 Comments                     identified in the report. In addition, management’s
                              actions taken or planned are responsive in part to
                              recommendation 2 and should resolve the issues identified
                              in the report. Even though management partially disagreed
                              with recommendation 2, we do not view the disagreement
                              as unresolved and we do not plan to pursue it through the
                              formal audit resolution process.




                                              iii
Postal Service’s Rehabilitation Program for                                                            HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                                             INTRODUCTION
    Background                     The Federal Employees' Compensation Act, Title 5 United
                                   States Code, Section 8102, provides for compensation to
                                   federal civilian employees injured by personal injury or
                                   disease sustained while performing their duties. Eligible
                                   employees are also entitled to receive medical and related
                                   services.1 The Department of Labor, Office of Workers’
                                   Compensation Programs, administers the Federal
                                   Employees' Compensation Act.

                                   The Postal Service’s Rehabilitation Program fulfills its
                                   legal obligation under Title 5 of the Code of Federal
                                   Regulations, Part 353.301, which directs agencies to make
                                   every effort to restore to work an employee who has
                                   partially recovered from a compensable injury. Postal
                                   Service’s Handbook EL-505, Injury Compensation,
                                   Section 11, states the Postal Service will make every effort
                                   to reemploy or reassign injured-on-duty employees with
                                   permanent partial injuries to positions consistent with their
                                   medical work restrictions.

                                   While a conclusive study has not been conducted to
                                   evaluate the total administrative cost versus the benefit, it is
                                   believed that the Rehabilitation Program helps the Postal
                                   Service reduce workers’ compensation costs because
                                   partially injured employees are provided productive work
                                   assignments. In addition, injured employees receive payroll
                                   wages as returned to work employees instead of receiving
                                   workers’ compensation payments as nonworking injured
                                   employees. The Postal Service places an employee in its
                                   Rehabilitation Program when the effects of the injury are
                                   considered permanent and the employee has reached
                                   maximum medical improvement. If the Postal Service is
                                   unable to provide the employee with a rehabilitation
                                   assignment, the Postal Service will then refer the employee
                                   to the Office of Workers’ Compensation Programs’
                                   Vocational Rehabilitation Programs for outplacement.

                                   In September 2001, the Postal Service began a National
                                   Reassessment Initiative to identify more productive work
                                   assignments for rehabilitation and limited duty employees.

1
 Injured employees will be furnished medical services, appliances, and supplies prescribed or recommended by a
qualified physician, which the Office of Workers’ Compensation Programs considers likely to cure, give relief, reduce
the degree or the period of injury, or aid in lessening the amount of the monthly compensation.




                                                          1
Postal Service’s Rehabilitation Program for                                     HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                              The purpose of the National Reassessment Initiative for
                              rehabilitation was to provide a consistent management
                              process for identifying more productive work assignments
                              for injured Postal Service employees. As of September 30,
                              2003, the Postal Service had identified nationwide
                              approximately 10,759 rehabilitation employees.
                              Approximately 2,260 out of 10,759 rehabilitation employees
                              identified belong to the Pacific Area.

 Objectives, Scope,           Our objective was to determine whether the Postal Service’s
 and Methodology              Rehabilitation Program is placing injured employees, who
                              were medically approved to return to work, in modified work
                              assignments. However, we did not evaluate whether any of
                              the injured employees are “disabled” as defined by the
                              Rehabilitation Act of 1973. To achieve this objective, we
                              reviewed the Postal Service and the Office of Workers’
                              Compensation Programs’ policies and procedures for
                              returning injured employees back to work. We also
                              interviewed appropriate Postal Service Headquarters, area,
                              and performance cluster control office staff. In addition, we
                              reviewed individual workers’ compensation case files for
                              randomly selected employees assigned to the Rehabilitation
                              Program in the Long Beach, Los Angeles, and San Diego
                              Performance Clusters of the Pacific Area. We extracted our
                              sample of employee case files from the Production Payroll
                              Mergdpay Files Application for rehabilitation employees who
                              had paid workhours. Details of the employee sample
                              selection methodology are discussed in the Appendix A.

                              This audit was conducted from November 2002 through
                              February 2004, in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

 Prior Audit Coverage         The Postal Service Office of Inspector General (OIG),
                              Department of Labor Office of Inspector General, and Ernst
                              and Young LLP have issued prior reports addressing the
                              Postal Service Rehabilitation Program and workers’
                              compensation issues.




                                               2
Postal Service’s Rehabilitation Program for                                     HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


                              Postal Service OIG, Postal Service’s Increased Workers’
                              Compensation Costs (Product Number HK-OT-02-001,
                              dated August 29, 2002), noted that one factor contributing to
                              a rise in workers’ compensation costs was a freeze on
                              rehabilitation workhours that prevented some managers
                              from returning injured employees to restricted work. The
                              OIG made no recommendations.

                              Department of Labor OIG, Review of Workers’
                              Compensation Program[s] for U.S. Postal Service
                              Employees (Report Number 035-1126281AO (1), dated
                              May 10, 1995), concluded the Office of Workers’
                              Compensation Programs was not timely in obtaining
                              sufficient medical evidence to clearly document the extent of
                              claimants’ injuries and the Postal Service was not timely in
                              returning injured employees to work. The latter was
                              attributed to control office staff not following established
                              procedures and supervisors’ reluctance to accept injured
                              employees.

                              The report recommended the Postal Service ensure control
                              office staffs provide employees and physicians written
                              notice of the availability of limited duty assignments and to
                              timely offer limited duty assignments in writing. It also
                              recommended the Postal Service provide incentives to
                              encourage offices to return recovered employees to the
                              workplace and implement a standardized tracking system to
                              monitor limited duty employees.

                              Ernest and Young, LLP, United States Postal Service
                              Comments on Internal Controls and Other Matters Year
                              Ended September 30, 2001, dated November 9, 2001,
                              issued a management letter regarding certain internal
                              control issues noted during its audit of the Postal Service’s
                              fiscal year (FY) 2001 financial statements. The letter
                              reported the number of employees entering the rolls of
                              workers’ compensation recipients whose injury claims were
                              more than five years old increased 154 percent between
                              FY 1999 and 2001. Ernst and Young recommended the
                              Postal Service study volume trends in compensation claims,
                              and the Postal Service agreed.

                              In its follow-up study, the Postal Service found there had
                              been a continual increase in the number of claimants added




                                               3
Postal Service’s Rehabilitation Program for                                                                 HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                                     to the workers’ compensation rolls whose claims were
                                     greater than five years old. These claimants had previously
                                     been in labor distribution code 692 status over FYs 2000
                                     through 2002. This increase could be attributed to injured
                                     employees in labor distribution code 69 who were no longer
                                     being provided with work and subsequently returned to the
                                     periodic rolls. In addition, there had been a substantial
                                     increase in new claims, despite meaningful reductions in the
                                     number of new injuries. The Postal Service concluded the
                                     FY 2000 change in the labor distribution code 69 policies
                                     contributed significantly to field managers’ reluctance to
                                     place injured employees in limited duty or rehabilitation
                                     assignments. As a result, the Postal Service placed injured
                                     employees on the periodic roll.




2
 Labor distribution code (also referred to as “LDC”) is a two-digit code designating personnel costs for specific
activities at all Postal Service organizations and installations. Specifically, the Postal Service used labor distribution
code 69 for injured employees in rehabilitation job assignments.




                                                             4
Postal Service’s Rehabilitation Program for                                    HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                                      AUDIT RESULTS
 Postal Service            The Postal Service’s Rehabilitation Program in the Long Beach,
 Rehabilitation            Los Angeles, and San Diego Performance Clusters placed
 Program                   168 of the 171 rehabilitation employees, who were medically
                           approved to work, in modified work assignments. However, in
                           the future, these performance clusters will find placing injured
                           employees increasingly difficult. Changes in Postal Service
                           operations, such as automation, consolidations, declining
                           workloads, and the outsourcing of Postal Service functions are
                           decreasing the type of work normally assigned to injured
                           employees. As a result, the Postal Service will experience
                           future increases in workers’ compensation costs due to its
                           inability to place injured employees.

 Placement of Injured      To comply with federal regulations and Postal Service policy,
 Employees                 the control office staff placed 168 of the 171 rehabilitation
                           employees in modified work assignments. However, three
                           employees could not be placed due to the severity of their
                           medical restrictions. Table 1 shows the number of cases
                           reviewed in each performance cluster.

                             Table 1. Number of Employees Reviewed and Placed at
                                          Each Performance Cluster
                                 Pacific Area          Number of           Number of
                                Performance            Employees           Employees
                                   Clusters             Reviewed            Placed
                             Long Beach                     56                 55
                             Los Angeles                    58                 56
                             San Diego                      57                 57
                             Total                        171                168

                           Before their on-the-job-injury, the Postal Service employed
                           98 of the rehabilitation employees as letter carriers, 45 as
                           clerks, and 11 as mail handlers. The Postal Service employed
                           the remaining 17 rehabilitation employees in “other” pre-injury
                           duty assignments, such as custodians and mechanics.
                           Table 2 shows the pre-injury job titles held by injured
                           employees reviewed in each performance cluster.




                                                5
Postal Service’s Rehabilitation Program for                                                          HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters




                                                      Table 2. Pre-Injury Job Titles

                                   Pacific Area
                                   Performance Letter             Mail
                                     Clusters   Carriers Clerks Handlers Other Total
                                   Long Beach     38       12      1       5    56
                                   Los Angeles    23       19      8       8    58
                                   San Diego      37       14      2       4    57
                                   Total          98       45     11      17   171

    Changes in Postal             Because of changes in Postal Service operations, such as
    Service Operations            automation, consolidations, declining workloads and the
                                  outsourcing of Postal Service functions, the type of work
                                  normally assigned to injured employees is decreasing in
                                  availability. As a result, in the future the Postal Service will
                                  find placing injured employees increasingly difficult. For 168 of
                                  the 171 rehabilitation employees placed, Table 3 shows the
                                  type of modified work assignments used to place those injured
                                  employees.

                                             Table 3. Rehabilitation Work Assignments
                                                 Performed by Injured Employees

                                      Job Duties and Tasks                   Number of Employees
                                   Mail Delivery                                      22
                                   Casing Mail                                        30
                                   Administrative and Clerical                        62
                                   Lobby Monitor, Window
                                   Clerk, and Customer Service                             17
                                   Other3                                                  37
                                   Total                                                  168

                                  The Postal Service has acknowledged the issue of possibly
                                  not being able to place injured employees in modified work
                                  assignments within the Postal Service. In the United States
                                  Postal Service Transformation Plan, April 2002,4 the
                                  postmaster general states “the Postal Service is quickly
                                  approaching a situation where it will no longer have positions



3
    Other duties include jobs such as data conversion operators and security guards.
4
    Postal Service Transformation Plan, April 2002, Appendix O Performance-Based Strategies, Substrategy 4.




                                                           6
Postal Service’s Rehabilitation Program for                                      HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


                           available to internally place injured employees and an
                           accelerated rehabilitation process that will expeditiously
                           outplace injured employees in private sector employment
                           positions is needed.”

                           The Postal Service finds itself in a most difficult position
                           because Postal Service management would really like to have
                           the resources to place all injured employees in positions within
                           the Postal Service, however, that reality is unlikely. Therefore,
                           it is important for the Postal Service to utilize outplacement as
                           a means to place injured employees. The Postal Service must
                           continue its efforts to partner with the Office of Workers’
                           Compensation Vocational and Outplacement Rehabilitation
                           Programs to increase outplacement of its injured employees.

                           The Federal Employees’ Compensation Act, Title 5 United
                           States Code, Section 8104, provides for vocational
                           rehabilitation services to assist injured employees in returning
                           to gainful employment consistent with their physical,
                           emotional, and educational abilities. The Office of Workers’
                           Compensation Programs, if requested by the agency may
                           consider an employee with an extended injury for rehabilitation
                           services. In addition, the Office of Workers’ Compensation
                           Programs will consider a case for rehabilitation services if the
                           agency cannot reemploy the employee. The employee is
                           provided a rehabilitation plan that consists of one or more
                           rehabilitation services such as, selective placement with the
                           previous employer, placement with a new employer,
                           counseling, guidance, test, work evaluations, training, and job
                           follow up.

 Possible Increases The Postal Service has recognized the importance of the
 in Future Workers’ Rehabilitation Program as a viable option in controlling
 Compensation Costs workers’ compensation costs. However, if the Postal Service
                    cannot continue to place all injured employees within the
                    Postal Service, it will incur increased workers’ compensation
                    costs in the future. All Postal Service rehabilitation employees
                    worked approximately 22 million hours in FY 2002 and earned
                    over $459 million in payroll salaries. If the Postal Service
                    becomes unable to place all rehabilitation employees within
                    the Postal Service in the future, these payroll salaries will
                    automatically convert into increased workers’ compensation
                    payments.




                                               7
Postal Service’s Rehabilitation Program for                                      HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


 Recommendation               We recommend the senior vice president, Human
                              Resources, direct the manager, Health and Resource
                              Management to:

                                  1. Continue efforts to partner with the Office of Workers’
                                     Compensation Programs to identify opportunities to
                                     better utilize the Office of Workers’ Compensation
                                     Programs’ Vocational and Outplacement
                                     Rehabilitation Programs and streamline the process
                                     for accelerated outplacement.

 Management’s                 Management agreed with the recommendation.
 Comments                     Management stated they are partnering with the Office of
                              Workers’ Compensation Programs on two rehabilitation
                              program efforts in FY2004. The two rehabilitation program
                              efforts are the National Outplacement Initiative with
                              outplacements to private industry and the Accelerated
                              Outplacement Process with the New York Office of Workers’
                              Compensation Programs regional office and the New York
                              Metro Area office.

 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 the recommendation and should resolve the issues
 Comments                     identified in the report.




                                               8
Postal Service’s Rehabilitation Program for                                        HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


 Monitoring                   Although the Postal Service placed injured employees in
 Rehabilitation               modified work assignments, the control office staff did not
 Employees                    always request updated medical documentation and
                              closely monitor work status for rehabilitation employees.
                              Specifically, the control office staff did not always obtain
                              and review annual medical updates for employees in
                              rehabilitation assignments. In addition, the control office
                              staff did not always update rehabilitation job offers to reflect
                              changes in medical restrictions. This occurred because the
                              control office staff did not consider these case
                              management tasks as important as managing other injury
                              compensation cases such as periodic roll and limited duty
                              cases. Consequently, some rehabilitation employees may
                              work beyond their recommended medical restrictions,
                              risking additional injury or conversely, not working to their
                              full capacity and reducing their unit’s productivity in the
                              future.

 Current Medical              The control office staff did not obtain current medical
 Documentation                documentation or adequately review employees’ medical
                              restrictions for 70 of the 171 case files reviewed. For
                              example, one employee’s file did not contain medical
                              documentation supporting the restrictions outlined in the
                              rehabilitation job offer. In another instance, the employee’s
                              medical documentation was over three years old.

                              Title 20, Code of Federal Regulations, Part 10.506,
                              authorizes agencies to monitor employees’ medical
                              progress and duty status by obtaining periodic medical
                              reports. In addition, Postal Service’s Handbook EL-505,
                              Injury Compensation, Section 11.17, states upon
                              completion of the employee’s first year in an assignment
                              under the Rehabilitation Program, and continuing on an
                              annual basis, the control office staff should request the
                              Postal Service contract physician to review current medical
                              information from the employee’s treating physician.

 Rehabilitation Job           The control office staff did not always update rehabilitation
 Offers for Injured           job offers to reflect changes in medical restrictions. Of the
 Employees                    171 employee case files reviewed, the control office staff
                              did not monitor the work status of 52 employees. In one
                              case file, a rehabilitation job offer allowed an employee to
                              work an eight-hour day when the medical documentation
                              restricted the employee to a



                                                9
Postal Service’s Rehabilitation Program for                                          HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                              six-hour workday. In another case file, a rehabilitation job
                              offer allowed an employee to work an eight-hour day when
                              the medical documentation restricted the employee to a
                              four-hour workday.

                              The Postal Service’s Handbook EL-505, Chapter 11,
                              Section 11.16, requires the control office staff or the
                              employee’s supervisor to:

                                   •   Monitor and conduct periodic follow-ups in
                                       coordination with the Office of Workers’
                                       Compensation Programs to assist the employee in
                                       readjusting to a working environment.

                                   •   Ensure the employee is working safely within
                                       prescribed restrictions in order to identify potential
                                       problems.

                                   •   Contact the employee on the day of return to work,
                                       at the end of the first week, and at the end of the
                                       first, third, and sixth month.

                                   •   Monitor the employee’s progress as long as the
                                       employee remains in the Rehabilitation Program.

 Prioritizing Case            The control office staff did not consider case management
 Management Tasks             tasks as important as managing other injury compensation
                              cases such as, periodic roll and limited duty cases.
                              Although the control office staff in all three performance
                              clusters agreed they were responsible for obtaining current
                              medical information and updating rehabilitation job offers,
                              they did not consider these tasks as priorities. The control
                              office staff also stated they did not perform these tasks
                              consistently due to shortages in control office staffing and
                              because their efforts were spent on managing more costly
                              injury compensation cases.

                              Control office staff at one performance cluster stated
                              managing new injury cases was difficult and they did not
                              have enough staff to monitor rehabilitation employees. The
                              control office staff indicated each injury compensation
                              specialist is responsible at any given time for approximately
                              1,500 injury compensation cases. At another performance
                              cluster, the control office staff stated focusing limited
                              resources on the most costly cases was a more




                                                10
Postal Service’s Rehabilitation Program for                                       HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                              responsible approach to managing workers’ compensation
                              costs. They did not always obtain updated medical
                              information because rehabilitation employees incurred
                              fewer costs than injured employees on the periodic roll who
                              receive wage compensation benefits and whose injuries
                              have not yet been resolved or have reached maximum
                              medical improvement.

                              Finally, control office staff in the third performance cluster
                              indicated obtaining annual medical updates for
                              rehabilitation employees was an unwarranted medical
                              expense because these employees have returned to work.
                              Furthermore, if an employee does not respond to a request
                              for updated medical information, the control office staff
                              must request assistance from the Office of Workers’
                              Compensation Programs personnel who may not respond
                              for months.

 Injured Employees            The failure of the control office staff to obtain periodic
 Working Above or             medical documentation and to update rehabilitation job
 Below Medical                offers to reflect changes in medical restrictions may result
 Restrictions                 in injured employees working above or below their medical
                              restrictions. Specifically, employees who have not had
                              periodic medical examinations may be able to work above
                              their current medical restrictions, or may even be able to
                              return to full duty. In contrast, rehabilitation employees
                              who are working above their current medical restrictions
                              are at risk for a recurrence, which could be costly to the
                              Postal Service.

 Corrective Action            To facilitate creation of new internal positions, the Postal
 Taken to Improve the         Service began a National Reassessment Initiative to
 Rehabilitation Program       identify productive work assignments for rehabilitation and
                              limited duty category employees. The purpose of the
                              National Reassessment Initiative for rehabilitation was to
                              provide a consistent management process for identifying
                              more productive work assignments for injured Postal
                              Service employees. As of September 30, 2003, the Postal
                              Service has completed the Reassessment Initiative at
                              62 out of 80 performance clusters, including the
                              12 performance clusters in the Pacific Area. The Postal
                              Service has also started the process for 17 out of
                              80 performance clusters. In addition, the Postal Service
                              has not started the process for one remaining performance
                              cluster. Further, the Postal Service has reviewed injury




                                               11
Postal Service’s Rehabilitation Program for                                      HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                              claim files for approximately 7,114 out of
                              10,759 rehabilitation employees.

                              The National Reassessment Initiative has improved the
                              Rehabilitation Program by updating medical records and, in
                              some cases, returning employees to full duty. The National
                              Reassessment Initiative placed emphasis on continuous
                              limited duty and rehabilitation program management,
                              including periodic medical updates and recording current
                              information in a tracking system. In addition, the Postal
                              Service reassessment team reviewed employees’ work
                              assignments to determine whether they should be assigned
                              productive labor distribution codes to more accurately
                              reflect the work they are performing.

                              Another phase of the National Reassessment requires the
                              Postal Service to develop strategies to refer employees on
                              the periodic roll to other positions outside the Postal
                              Service. Postal Service Headquarters has directed area
                              offices to identify potential employees for referral to the
                              Office of Workers’ Compensation Programs for
                              rehabilitative case management. As a result, the area
                              offices have referred 571 injured employees to the Office of
                              Workers’ Compensation Programs for outplacement
                              consideration. In addition, the Postal Service and the
                              Office of Workers’ Compensation Programs are working
                              together to streamline the process for accelerated
                              outplacement.

 Recommendation               We recommend the senior vice president, Human
                              Resources, direct the manager, Health and Resource
                              Management to:

                                  2. Issue a policy letter for the Rehabilitation Program
                                     instructing all control office staff to:

                                      •   Obtain annual medical updates for all
                                          rehabilitation employees after the employees’
                                          first year in the Rehabilitation Program.




                                                12
Postal Service’s Rehabilitation Program for                                       HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


                                      •   Require mandatory coordination with
                                          supervisors, at minimum, on a quarterly basis, or
                                          as medical or work changes occur, to effectively
                                          monitor rehabilitation employees to validate
                                          whether employees are working within their
                                          current medical restrictions.

                                      •   Continue to update data in the automated
                                          tracking system developed by the National
                                          Reassessment Initiative team for all current and
                                          new rehabilitation employees.

                                      •   Assign, where possible, all new rehabilitation
                                          employees to productive labor distribution codes.

 Management’s                 Management partially agreed with this recommendation.
 Comments                     Specifically, management agreed they would issue a letter
                              in February 2004 to the Injury Compensation control office
                              staff reiterating the requirement that medical information,
                              relating to employees in permanent rehabilitation
                              assignments, be reviewed on an annual basis per
                              Handbook EL-505, “Injury Compensation,” Chapter 11,
                              Section 11.17. However, management disagreed that the
                              control office staff be required to coordinate case
                              management actions with supervisors on a quarterly basis,
                              or as soon as changes may occur in each case.
                              Management stated this recommended activity is the
                              responsibility of the Injury Compensation function and is
                              required to be regularly completed in accordance with
                              ELM 17.2, dated February 2003, Section 545.52.

 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 part of recommendation 2 and should resolve the issues
 Comments                     identified in the report. Even though management partially
                              disagreed with recommendation 2, we do not view the
                              disagreement as unresolved and we do not plan to pursue
                              it through the formal audit resolution process.




                                                13
Postal Service’s Rehabilitation Program for                                      HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


 Recommendation               We recommend the senior vice president, Human
                              Resources, direct the manager, Health and Resource
                              Management to:

                                  3. Continue efforts to complete the Postal Service’s
                                     National Reassessment Initiative and provide the
                                     OIG with a detailed report showing overall results.

 Management’s                 Management agreed with the recommendation.
 Comments                     Management stated the National Reassessment Initiative
                              was completed in all 80-performance clusters in
                              December 2003. Management also stated they would
                              provide the OIG a detailed report showing the results of the
                              National Reassessment Initiative in February 2004.

 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 the recommendation and should resolve the issues
 Comments                     identified in the report.




                                               14
Postal Service’s Rehabilitation Program for                                  HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

           APPENDIX A. METHODOLOGY FOR REHABILITATION
                   EMPLOYEE SAMPLE SELECTION

Purpose of the Sampling

One of the objectives of this audit was to determine whether the Postal Service’s
Rehabilitation Program is accommodating employees who are medically approved to
work. In support of this objective, the audit team employed stratified random samples
for three judgmentally selected performance clusters.

Definition of the Audit Universe

The audit universe consisted of employees having LDC 69 hours for FY 2002 for
three judgmentally selected performance clusters: Long Beach, Los Angeles, and
San Diego.

Sample Design and Modifications

Within each performance cluster LDC 69 employees were selected using a stratified
random sample. LDC 69 employees were stratified into five strata.

       •   Stratum 1:    LDC 69 employees with 0 paid hours and 0 total hours.
       •   Stratum 2:    LDC 69 employees with 0 paid hours and more than 0 total hours.
       •   Stratum 3:    LDC 69 employees with paid hours between 0 and 1,040.
       •   Stratum 4:    LDC 69 employees with paid hours between 1,040 and 1,560.
       •   Stratum 5:    LDC 69 employees with paid hours greater than 1,560.

LDC 69 employees were selected (simple random sample) independently within each
stratum. From the three performance clusters 223 employees were selected.

                            San Diego        Los Angeles       Long Beach
                        Population Sample Population Sample Population Sample
        STRATUM #         Size       Size   Size       Size   Size      Size
        1                    0         0       2         2       1        1
        2                    3         3      25        20       9        9
        3                   82        20      31        20      43       21
        4                   30        20      20        20      32       20
        5                  320        27     192        20     195       20
                                      70                82               71




                                              15
Postal Service’s Rehabilitation Program for                                HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters


The audit team discovered 50 of the selected employees were outside the scope of the
audit. This was a result of retirements, deaths, terminations, resignations, employees
placed in LDC 69 in error, and employees that had returned to full duty. In addition,
records for two selected employees were unavailable for review. As a result, the total
number of employees reviewed was reduced to 171.


     Performance          Sample         Outside of   Records Not     Reviewed in
     Cluster               Size           Scope        Available         Audit
     San Diego              70              12             1               57
     Long Beach             71              15             0               56
     Los Angeles            82              23             1               58
     Total                 223              50             2              171




                                                16
Postal Service’s Rehabilitation Program for           HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters

                  APPENDIX B. MANAGEMENT’S COMMENTS




                                              17
Postal Service’s Rehabilitation Program for        HM-AR-04-005
 the Long Beach, Los Angeles, and San Diego
 Performance Clusters




                                              18
